<html>
<title> - TULSA-GREENWOOD RACE RIOT CLAIMS ACCOUNTABILITY ACT OF 2007</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
      TULSA-GREENWOOD RACE RIOT CLAIMS ACCOUNTABILITY ACT OF 2007
=======================================================================



                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON THE CONSTITUTION, 
                   CIVIL RIGHTS, AND CIVIL LIBERTIES

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 1995

                               __________

                             APRIL 24, 2007

                               __________

                           Serial No. 110-19

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                     U.S. GOVERNMENT PRINTING OFFICE

34-924 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

  Subcommittee on the Constitution, Civil Rights, and Civil Liberties

                   JERROLD NADLER, New York, Chairman

ARTUR DAVIS, Alabama                 TRENT FRANKS, Arizona
DEBBIE WASSERMAN SCHULTZ, Florida    MIKE PENCE, Indiana
KEITH ELLISON, Minnesota             DARRELL ISSA, California
JOHN CONYERS, Jr., Michigan          STEVE KING, Iowa
ROBERT C. SCOTT, Virginia            JIM JORDAN, Ohio
MELVIN L. WATT, North Carolina
STEVE COHEN, Tennessee

                     David Lachmann, Chief of Staff

                    Paul B. Taylor, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             APRIL 24, 2007

                              TEXT OF BILL

                                                                   Page
H.R. 1995, the ``Tulsa-Greenwood Race Riot Claims Accountability 
  Act of 2007''..................................................     2

                           OPENING STATEMENT

The Honorable Jerrold Nadler, a Representative in Congress from 
  the State of New York, and Chairman, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     7
The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Ranking Member, Subcommittee on the 
  Constitution, Civil Rights, and Civil Liberties................     7
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution, Civil 
  Rights, and Civil Liberties....................................     8

                               WITNESSES

Mr. Alfred L. Brophy, Ph.D., Professor of Law, University of 
  Alabama School of Law
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mr. John Hope Franklin, Ph.D., Professor of Psychology (Retired), 
  Fordham University
  Oral Testimony.................................................    24
  Prepared Statement.............................................    26
Ms. Olivia Hooker, Ph.D., James B. Duke Professor Emeritus of 
  History, Duke University School of Law
  Oral Testimony.................................................    31
  Prepared Statement.............................................    32
Mr. Charles J. Ogletree, Jr., Director, Charles Hamilton Houston 
  Institute for Race and Justice, Harvard Law School
  Oral Testimony.................................................    33
  Prepared Statement.............................................    35

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Steve Cohen, a Representative 
  in Congress from the State of Tennessee, and Member, 
  Subcommittee on the Constitution, Civil Rights, and Civil 
  Liberties......................................................    10

                                APPENDIX

Material Submitted for the Hearing Record........................    67


      TULSA-GREENWOOD RACE RIOT CLAIMS ACCOUNTABILITY ACT OF 2007

                              ----------                              


                        TUESDAY, APRIL 24, 2007

                  House of Representatives,
                 Subcommittee on the Constitution, 
                 Civil Rights, and Civil Liberties,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:12 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Jerrold 
Nadler (Chairman of the Subcommittee) presiding.
    Present: Representatives Nadler, Wasserman Schultz, 
Ellison, Conyers, Scott, Watt, Cohen, Jackson Lee, Waters, 
Franks, Pence, and Issa.
    Staff present: Keenan Keller, Majority Counsel; David 
Lachmann, Majority Staff Director; Paul Taylor, Minority 
Counsel; and Susana Gutierrez, Professional Staff Member.
    Mr. Nadler. Good morning. This hearing of the Subcommittee 
on the Constitution, Civil Rights, and Civil Liberties will 
come to order.
    I am pleased to welcome you today to this hearing of the 
Subcommittee on the Constitution, Civil Rights, and Civil 
Liberties on the subject of the Tulsa-Greenwood Race Riot 
Accountability Act of 2007, which was introduced yesterday by 
Chairman Conyers.
    [The bill, H.R. 1995, follows:]
      
      


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      

  
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Nadler. The Chair recognizes himself for 5 minutes for 
an opening statement.
    Today the Subcommittee meets to examine an old injustice 
for which our nation has failed to find a remedy. In 1921, in 
less than 1 day, a 42-square block area of Tulsa, Oklahoma, the 
Greenwood neighborhood, was attacked by a White mob and burned 
to the ground. Approximately 300 of its residents were murdered 
by the mob. What had been a thriving community was obliterated.
    A commission established by the state of Oklahoma issued a 
report in February of 2001, 6 years ago, detailing for the 
first time the extent of the city and State government's 
involvement in the riot and in the cover-up that followed and 
the total lack of remedy available in the courts at that time.
    A civil rights suit based on these newly disclosed facts 
seeking compensation for the damages that occurred as a direct 
result of the government's involvement was dismissed by a 
divided 10th Circuit on the grounds that the suit was time-
barred.
    No one was ever convicted for this outrage. Racist courts 
were closed to the more than 100 lawsuits filed by Greenwood 
residents and property owners against insurance companies 
seeking payment on their policies. According to the commission, 
local officials attempted to block the rebuilding of the 
Greenwood community by amending the Tulsa building code.
    It is painful to realize that what can only be described as 
ethnic cleansing took place in our nation and that it has been 
virtually wiped from the history books. Thanks to the work of 
the 1921 Tulsa Race Riot Commission, we have another chance to 
confront the past.
    Chairman Conyers introduced legislation yesterday to 
address this longstanding injustice. And I want to thank him 
for his efforts to bring this terrible history to the public's 
attention and for his hard work in seeking to do a measure of 
justice.
    Nearly 90 years have passed since the Greenwood community 
was destroyed with the connivance of local officials. No one 
has been called to account for it. Very few of the survivors 
remain. We cannot undo the past, but we can seek to make amends 
to take responsibility on behalf of this nation for what 
happened and to do what we can for the survivors.
    For too many, justice delayed has been justice denied. This 
is a matter that can no longer wait. And the least we can do is 
to open our courts at this late date to them.
    We have a panel of very distinguished witnesses today, 
including one witness who will provide a very special 
perspective on the events of 1921.
    I look forward to hearing from all of you. And I want to 
welcome you to the Subcommittee.
    The gentleman from Arizona, Mr. Franks, is recognized for 5 
minutes for his opening statement.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And I thank the panelists for being here today. And I am 
looking forward to their testimony as well.
    Mr. Chairman, in ``Federalist 51'', James Madison wrote, 
``It is of great importance in a republic not only to guard the 
society against the oppression of its rulers, but also to guard 
one part of the society against the injustice of the other 
part. If a majority be united by a common interest, the rights 
of the minority will be insecure.''
    Both of these issues are clearly illustrated here today. In 
Tulsa there was both a failure of law enforcement to protect an 
innocent minority and worse, an oppressive, unconstitutional 
disarming and then slaughtering of an innocent population that 
acted to protect its children and neighborhoods.
    People suffered and died, Mr. Chairman. And this was an 
inexcusable outrage and disgrace. The Tulsa Race Riots cuts 
against everything that America stands for, namely, a 
fundamental belief that all of the people are created equal and 
endowed by their creator with certain unalienable rights, those 
of life, liberty and the pursuit of happiness.
    Unfortunately, Mr. Chairman, most of the individuals who 
suffered in the Tulsa tragedy are no longer with us and did not 
live to witness their day in court, which the victims received 
more than a half a century after the fact. The courts found 
that the victims of the riot were terribly wronged. And finally 
the story of Greenwood is known.
    Though the courts have given closure in the public domain 
and recognition for the indignities suffered, the Federal 
courts have had to uniformly and unanimously dismiss the claims 
because they were time-barred. The plaintiffs had opportunity 
to bring claims against the State since at least the 1960's but 
chose not to do so. Then in 2003, O.J. Simpson lawyer, Johnnie 
Cochran, brought claims for money damages in the case of 
Alexander v. Oklahoma.
    This case was resolved in 2005 by a unanimous 10th Circuit 
Court ruling finding that the claims were indeed time-barred. 
The Supreme Court declined to hear the case because the facts 
and the law are clear and the case is beyond the statute of 
limitations.
    It is important at this juncture to point out that the 
rights under our Constitution belong to individuals and not to 
groups. And nearly all the individuals who suffered in June 
1921 are no longer alive. Nor are those who inflicted such 
injustice.
    Mr. Chairman, it seems that we are never quite so eloquent 
as we are when we decry the crimes of a past generation. And we 
are never so blind as when we ignore the injustice of the day 
in our own time. It is a tragedy that occurs when innocent 
human beings, children of God, are diminished as persons. It is 
a tragedy repeated time and again in the history of the human 
family.
    The greatest act of contrition we could ever offer to all 
of the victims of those tragedies is to instill anew in our own 
hearts once and for all a conviction that regardless of what 
other forces of expedience might exist, we as a society must 
resolve to treat every human being, Black or White, young or 
old, born or unborn, rich or poor, perfect or imperfect, weak 
or strong as the children of God that they are. May that be our 
greatest commitment at this hour as we remember the tragedy of 
the Tulsa riots.
    Thank you, Mr. Chairman. And I look forward to the 
testimony.
    Mr. Nadler. Thank you.
    I now yield 5 minutes to the distinguished Chairman of the 
full Committee, the gentleman from Michigan.
    Mr. Conyers. Thank you, Chairman Nadler.
    And to Trent Franks of Arizona, the Ranking Member, I 
appreciate these opening statements because, to me, this is 
another piece of American history that is so important, that we 
come here today to remedy something that happened in 1921.
    I notice sitting in the Judiciary Committee hearing room 
Alderwoman Dorothy Tillman of Chicago, who has worked not only 
on reparations but on this matter, on the issues with the Black 
farmers and for justice in many ways all across the country. I 
am delighted that she and all of these survivors are here. And 
of course, our more regular witness, Charles Ogletree of 
Harvard Law School is again with us. We welcome his presence.
    Now, this is American history at its finest hour. What we 
are looking at are the reasons that sometimes the statute of 
limitations can be told. In the Japanese internment case that 
came before the Congress, in the Pigford Black farmers case 
that we tolled a statute of limitations. We mentioned Johnny 
Cochran, one of our legendary members of the bar here.
    And so, we come here with the full understanding in the 
Judiciary Committee that it is within the courts' discretion to 
tow the statute of limitations based on common law principle 
and its balance test based on fairness and the need for 
finality. Some of the key equitable principles present here is 
not only was there evidence destroyed and that the city 
deliberately hid the evidence, but there is more than a 
suggestion that law enforcement operatives, including National 
Guard, participated in the riot itself.
    And then to have Dr. John Hope Franklin, whose father was 
an attorney in Tulsa, the busy community known as the ``Negro 
Wall Street,'' brings us all together in this room on this day 
to try to bring some finality to such an important issue.
    The case of the Tulsa-Greenwood Race Riot is worthy of 
congressional attention because substantial evidence suggests 
that governmental officials deputized and armed some of the mob 
and that the National Guard itself joined in the destruction. 
The report commissioned by the Oklahoma State Legislature in 
1997 brought new evidence forward.
    And as a matter of fact, we have the State representative 
from Oklahoma who is present with us today sitting in the front 
row. And we want to thank you from the bottom of our hearts for 
the great work that you did in bringing this forward.
    And so, with this new evidence crucial for the formulation 
of a substantial case, but its timeliness raised issues at law 
and resulted in a dismissal on statute of limitations ground in 
dismissing the survivors' claim. However, the court found that 
the extraordinary circumstances might support extending the 
statute of limitations, but that Congress did not establish 
rules applicable to the case it barred.
    So with this legislation, we have the opportunity to 
provide closure for a group of claimants, all over 90 years old 
and some of them here today, and the ability to close the book 
on a tragic chapter in our history. So, I am very proud to join 
all of the Members of this Committee for the hearing that will 
now take place.
    Thank you very much, Chairman Nadler.
    Mr. Nadler. Thank you.
    In the interest of proceeding to our witnesses and mindful 
of our busy schedules, I would ask that other Members submit 
their statements for the record. Without objection, all Members 
will have 5 legislative days to submit opening statements for 
inclusion in the record.
    Without objection, the Chair will be authorized to declare 
a recess of the hearing if necessary.
    As we ask questions of our witnesses, the Chair will 
recognize Members in the order of their seniority on the 
Subcommittee, alternating between majority and minority 
Members, providing that the Member is present when his or her 
turn arrives. Members who are not present when their turn 
begins will be recognized after the other Members have had the 
opportunity to ask their questions. The Chair reserves the 
right to accommodate a Member who is unavoidably late or who is 
only able to be with us for a short time.
    [The prepared statement of Mr. Cohen follows:]
 Prepared Statement of the Honorable Steve Cohen, a Representative in 
 Congress from the State of Tennessee, and Member, Subcommittee on the 
            Constitution, Civil Rights, and Civil Liberties
    Today's hearing addresses yet another painful episode in our 
Nation's long-tortured history of race relations. The Greenwood Race 
Riot of 1921 represents a particular low point in that history. During 
the riot, a white mob burned one of the most prominent and thriving 
African-American communities in the country to the ground, aided and 
abetted by the very government officials who were supposed to be 
protecting the innocent residents and property owners of that 
community. Looking to the courts for relief, Greenwood's residents were 
denied justice--in the 1920's because of rank racial prejudice and in 
the 2000's because of a technical legal hurdle. The legislation that we 
discuss today--the ``Tulsa-Greenwood Riot Accountability Act of 
2007''--provides at least the fair opportunity for the riot's victims 
to obtain justice from the federal courts in light of new evidence that 
strongly suggests the culpability of government officials with respect 
to the riot. After eight and half decades in the shadows, the victims 
of the Greenwood Race Riot are entitled to their day in court.

    Mr. Nadler. I would now like to welcome our distinguished 
panel of witnesses.
    Professor Alfred Brophy teaches at the University of 
Alabama School of Law. He has written extensively on race and 
property law in colonial, antebellum and early 20th century 
America. He served as a clerk to Judge John Butzner of the U.S. 
Circuit Court of Appeals for the 4th Circuit and has taught at 
Boston College Law School, Indiana University, the University 
of Hawaii and Vanderbilt University. He received his A.B. from 
the University of Pennsylvania, his Ph.D. from Harvard and his 
J.D. from Columbia University.
    John Hope Franklin is the James B. Duke Professor Meritus 
of History and was for 7 years a professor of Legal History in 
the Law School of Duke University. He is a native of Oklahoma 
and a graduate of Fisk University. He received his Ph.D. in 
history from Harvard. He is one of this nation's most 
distinguished historians of the African-American experience in 
the United States. I would go on to list his many acclaimed 
publications, awards, teaching posts and honorary degrees, but 
that would leave little time for our hearing.
    The Chair would note with satisfaction that, among his many 
achievements, Professor Franklin chaired the history department 
at Brooklyn College. And Brooklyn is part of my constituency. 
Most relevant for the Subcommittee, I must note that Professor 
Franklin's father was born in the Indian territory, grew up in 
Oklahoma and lived through the Tulsa Race Riot in 1921. He, 
himself, moved to Tulsa when he was 10 years old, just 4 years 
after the Tulsa riot, and witnessed firsthand the impact the 
riot had on Tulsa.
    Dr. Olivia Hooker is a survivor the Tulsa Race Riot of 
1921. She is here today as a witness to history. And we are 
both grateful and privileged that she has come all this way to 
describe for Congress exactly what happened.
    She was the first African-American woman to enlist and go 
on active duty in the Coast Guard in World War II. She is a 
graduate of Ohio State University. She has an M.A. from 
Columbia Teachers College and a Ph.D. from the University of 
Rochester. She taught at the graduate school of arts and 
sciences at Fordham University before retiring in 1985.
    Our final witness is no stranger to this Committee. 
Professor Charles Ogletree is the Jesse Climenko Professor of 
Law at Harvard and is the executive director of the Charles 
Hamilton Houston Institute for Race and Justice. Professor 
Ogletree earned his B.A. and M.A. from Stanford University and 
holds a J.D. from Harvard Law School.
    On behalf of the Subcommittee, I want to extend a warm 
welcome to all of you.
    Without objection, your written statements will be made 
part of the record in its entirety. I would ask each witness to 
summarize your testimony in 5 minutes or less. To help you stay 
within that time, there is a timing light at your table. When 1 
minute remains, the light will switch from green to yellow, and 
then to red when the 5 minutes are up.
    I will begin by asking Professor Brophy----
    Mr. Ogletree. Chairman, before he speaks, can I have the 
privilege to introduce the survivors who are here who will not 
be testifying, if I could?
    Mr. Nadler. By all means. By all means.
    Mr. Ogletree. Thank you very much. I am Charles Ogletree, 
the lead counsel for the survivors.
    And we have here today Mrs. Edie Fay Gates, who has 
chronicled the history of the survivors--if you would stand up, 
Mrs. Gates--in several books and is the one who helped keep 
this alive. And she was also on the Tulsa Race Riot Commission.
    We have Representative Donald Ross, who helped this 
legislation, was on that commission as well, who has come in 
from Oklahoma and has been an important mainstay.
    We have Dr. Otis Clarke, who is 104 years old, the oldest 
survivor here. He was 18 years old during the riot in 1921. He 
is here with his daughter and granddaughter, Gwen and Starr 
Williams. And he is our oldest surviving witness.
    We have Mr. Wess Young, a 91-year-old survival from Tulsa 
and his wife, Catherine Young, from Tulsa, Oklahoma.
    We have Agnieszka Fryszman, one of the lawyers who has been 
working with the survivors, from the Cohen Milstein firm here 
in Washington, D.C.
    We have Mr. Demarial Solomon Simmons, who is a young man 
from Tulsa whose grandparents were in Tulsa. And we would like 
to submit his testimony for the record.
    [The information referred to was not received by the 
Subcommittee prior to the printing of this hearing.]
    Mr. Ogletree. We have Representative Jamar Shomate, who 
represents the district where many of these residents live now 
in Tulsa, Oklahoma.
    We have Suzette M. Malveaux, who is with the Cohen Milstein 
firm and helped us draft the original complaint. She is a 
professor here at Catholic University.
    And we also have Alderman Dorothy Tillman from Chicago, who 
has been down to Tulsa, who has been with the survivors here.
    And we have Reverend Granger Browning, who hosted the 
survivors here this past weekend at Ebenezer AME Church in Fort 
Washington, Maryland, along with Jonathan Newton, one of my 
former students and also a member of AME church.
    And I would also want to acknowledge the other lawyers: 
Dennis Sweet; Michele Roberts; Johnny Cochran, who you 
mentioned; Eric Miller; Raul Sanders; Leslie Mansfield; Jim 
Goodwin; and a few others; Reggie Turner, a classmate of mine 
who is documenting this history in a film called, ``Before They 
Die.''
    Thank you.
    Mr. Nadler. Thank you, Professor.
    The Chair certainly wants to welcome the survivors and the 
chroniclers and all those who have worked on behalf of the 
survivors and to bring this injustice to light and to history 
and to judicial resolution. And I express my appreciation for 
all your efforts and for your being here today.
    And I thank you, Professor, for bringing this to our 
attention and for introducing them. And thank you all for that.
    And, Professor Brophy, you may now proceed with your 
testimony.

    TESTIMONY OF ALFRED L. BROPHY, Ph.D., PROFESSOR OF LAW, 
              UNIVERSITY OF ALABAMA SCHOOL OF LAW

    Mr. Brophy. Thank you, Representative Nadler, 
Representative Conyers, Ranking Member Franks, and Members of 
the Subcommittee on the Constitution, Civil Rights and Civil 
Liberties. It is my pleasure and honor to speak on behalf of 
this legislation to repair the tragedy of the Tulsa riots of 
1921.
    I am Al Brophy, professor of law at the University of 
Alabama and author of, among other works, ``Reconstructing the 
Dreamland: The Tulsa Riots of 1921.''
    I think the most poignant photograph of the riot is this 
picture entitled, ``Running the Negro out of Tulsa.'' It is a 
postcard made up after the riot to commemorate the riot. And it 
captures, I think, the essence of it. It was the result of race 
hatred and a move to drive out Tulsa's African-American 
population. It was about teaching Greenwood residents their 
place at the same time they were driven from their homes.
    I would like to emphasize several key aspects of the riot.
    First, the city is culpable. When the riot began, the 
police chief issued hundreds of commissions to men at the 
courthouse. They were instructed to get a gun and get a Black 
person or thereabouts. And they worked in conjunction with 
police officers and the local units of the National Guard to 
disarm every Black person in Tulsa and take them to what 
newspapers called concentration camps around the city. What 
followed then was those deputies, sometimes working in 
conjunction with police officers to loot and burn Greenwood.
    In the aftermath of the riot, Tulsa made concerted efforts 
to erase the city's culpability. An all-White grand jury 
investigated the riot. And their conclusion was told in the 
headline of the Tulsa World: ``Grand Jury Blames Negroes for 
Inciting Race Rioting. Whites Clearly Exonerated.'' Or, as the 
Oklahoma City Black Dispatch commented, ``There is a whitewash 
brush, and a big one, in operation in Tulsa.''
    Second, though some people knew and bravely sought to 
obtain some form of redress through the courts, race riot 
victims had no realistic shot at justice. For those riot 
victims, people who lived through the horror and brutality of 
the riot, Jim Crow has not yet ended.
    For everyone else, we may have said that Jim Crow ended in 
the 1960's when this Congress passed its comprehensive civil 
rights statutes. For those riot victims who were taught at an 
early age the assertion of legal rights leads to their 
destruction, I think it has not yet ended.
    And though we had something like 100 lawsuits filed at the 
time, they went nowhere. Things were going from worse for riot 
victims.
    In 1923, the governor of Oklahoma declared martial law 
throughout the State citing among other reasons the pervasive 
influence of the Klan in the Tulsa courts. As late as the 
1970's when someone is established as General Ed Wheeler of the 
Oklahoma National Guard, a White man, studied the riot, he was 
threatened with violence.
    Third, it was through the Oklahoma legislature's Tulsa Riot 
Commission and the moral and financial support given to it by 
the legislature that we were finally able to piece together a 
complete picture of the riot. Though we knew pieces of this 
before, it was only through that comprehensive work 
representing the work of dozens of scholars and community 
members working over years that we were able to piece this 
together.
    When looking at photographs like this and the next one 
showing scenes of utter destruction for as far as the eye can 
see, one might ask how has the story been buried for so long.
    And I think the answer turns on an unholy combination of 
factors: the diligent efforts of Tulsa authorities and other 
prominent Tulsans to scuttle the story, to tell the world that 
Greenwood residents were to blame for the riot, to hide the 
culpability of the police department and the local units of the 
National Guard, and to threaten with prosecution those brave 
Greenwood leaders who might attempt to obtain justice.
    It was a culture of suppression in which, to borrow a 
phrase from Ralph Ellison's novel, ``Juneteenth,'' Blacks were 
counted but not heard. And it has only been relatively recently 
as people who had culpability for the crimes such as murder 
have died and evidence has come to light that we have been able 
to put together the complete picture of the riot.
    I will in the interest of time just emphasize that the city 
and State are culpable. The tragedy is concentrated in time and 
place. This isn't a claim for general societal reparations. And 
promises were made at the time to repair the community.
    Thank you very much.
    [The prepared statement of Mr. Brophy follows:]
                 Prepared Statement of Alfred L. Brophy
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Nadler. Thank you very much, Professor.
    We will now hear from Professor Franklin, who is recognized 
for 5 minutes.

TESTIMONY OF JOHN HOPE FRANKLIN, Ph.D., PROFESSOR OF PSYCHOLOGY 
                 (RETIRED), FORDHAM UNIVERSITY

    Mr. Franklin. Thank you, Mr. Chairman. I will be as brief 
as I can about----
    Mr. Nadler. Could you put on your microphone, please?
    Mr. Franklin. It is on, Mr. Chairman.
    Mr. Nadler. Okay, thank you.
    Mr. Franklin. I will be as brief as I can about a matter 
that means so much to so many people.
    My father was a lifelong resident of Oklahoma. We lived in 
a small village south of Tulsa for some years. I was born 
there.
    But in early 1921, my father went to Tulsa to open a law 
office. We were to join him at the end of the school term, as 
my mother was a teacher and I was a student. But after we had 
packed and were waiting for him to arrive to escort us to 
Tulsa, we waited, and we waited for more than a day.
    On the second day of waiting, my mother learned through the 
Muskogee Daily Phoenix that there had been a riot in Tulsa and 
that there were many casualties. For some days she did not know 
whether my father was living or dead. She finally got a note 
from him saying that he was unharmed but that he had been 
detained in the Convention Hall for several days.
    He said that he could not bring us to Tulsa. The whole town 
where we would live had been devastated by fires and by murders 
and by all kinds of activities that prevented a normal 
procedure in that part of the community.
    And so, we had to wait. We waited for 4 years before we 
were able to move to Tulsa. And it was at that time that I 
discovered that Tulsa was still on the move so far as 
reconstruction was concerned, that the Black part of town was 
still just in the midst of trying to rebuild.
    And as a matter of fact, when I came there, I was amazed to 
see houses still partly rebuilt, churches where only the 
basement had been reconstructed. It was a strange sort of 
appearance.
    Later, when I learned a little more and when I had learned 
something about architecture, I said that this town, this Black 
part of town is undergoing what might be called a post-riot 
building renaissance because the structures were just half-
finished. And I did not know--I did not think they would ever 
be completely finished.
    But they were in due course. But I noticed also that there 
was a culture of silence that had settled down over the city. 
Nothing was discussed that had any connection with the riot. 
Indeed, children in the White part of town grew up not even 
knowing that there had been a riot.
    The mayor of Tulsa, the first woman mayor of Tulsa, Susan 
Savage, told me that she was a grown woman, although she had 
lived in Tulsa, born there after the riot, that she was a grown 
woman before she even knew that there had been a riot. A sort 
of culture of silence had settled down. And no one spoke of it, 
except in the Black part of town where they spoke of it in 
hushed tones and did not want to convey the impression that 
they had been defeated and almost destroyed by the action that 
was taken.
    It was in those years that my father brought suit against 
the city, against the State, against the insurance companies 
and anyone else who might have been connected with the riot in 
any way. I used to say that he lost all of those suits, except 
one which was against the city of Tulsa, which had passed an 
ordinance calling for no construction in the city that was not 
fireproof.
    Well, there were no resources for the Black community to 
build fireproof constructions. And so, my father commanded them 
to build, build with anything they had, orange crates and what 
not.
    And so, his clients were arrested and brought to trial for 
violation of the ordinance. And it was there that he was able 
to argue for them and to appeal and finally--and the State 
supreme court--the court handed down the decision that the 
ordinance had been passed as an effort to prevent any kind of 
action, to prevent even any discussion of the riot. And so, he 
proceeded to carry on in this fashion for many years.
    And I want to say in conclusion that there were many of us 
like my schoolmate here to my left and others who survived. But 
most of our schoolmates have not survived. And they suffered 
during the remainder of their lives from the trauma of the 
experiences of 1921. And I can say that had I arrived on 
schedule as I should have arrived on schedule that I might not 
be here, either, at this time.
    But I thank you for the opportunity, Mr. Chairman. And I 
could go on for many, many hours, but I won't. Thank you.
    [The prepared statement of Mr. Franklin follows:]
                Prepared Statement of John Hope Franklin
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Nadler. Thank you, Professor.
    Professor Hooker?

  TESTIMONY OF OLIVIA HOOKER, Ph.D., JAMES B. DUKE PROFESSOR 
       EMERITUS OF HISTORY, DUKE UNIVERSITY SCHOOL OF LAW

    Ms. Hooker. Thank you, Representative Conyers and 
Committee, for allowing us to unburden ourselves after 86 years 
of suffering.
    As a small girl of 6 years, my two parents who had come to 
Oklahoma to teach in the Indian nations, my mother from Texas 
and my father from Mississippi. And when Oklahoma became a 
State, then it was possible for my father to go into business.
    But then picture with me the trauma of a young 6-year-old 
girl hearing things hitting the house, ``bang, bang, bang, 
bang'' like that, and thinking it was hail until my mother took 
me to the window and let me peer through the blinds and said, 
``That thing up there on the stand with the American flag on 
top of it is a machine gun. And those are bullets hitting the 
house. And that means your country is shooting at you.''
    This was a totally amazing thought to a child who was 
totally idealistic. I had never met any kind of discrimination 
because the salesmen who came to sell my father things always 
acted as if the children were so important in order to sell 
their goods. So I didn't know about hatred. And this was 
devastating to me to think of my country shooting at me.
    As the publicity was suppressed, the nation did not know 
about what happened in Tulsa except through the Black press: 
Roscoe Dungee in Oklahoma City and Mr. Smitherman in Tulsa, who 
did publish it. But the local presses of many cities did not.
    It so happened my dad went down to the rubble. There was 
nothing but bricks left of the store, but he noticed his safe 
was still there. And he thought, ``Well, I will try to open 
it,'' thinking it would be empty. But, praise the Lord, it was 
not empty.
    He didn't have money, but he had some war bonds. And he was 
able then, with a wise secretary, Mr. Greg, who had been 
trained in a graduate school in Germany--Archie Greg and my 
father went on a speaking tour to the Black churches of the 
United States on the East Coast mostly.
    They went to Washington to the AME Zion Church and to 
Petersburg and Lynchburg and Richmond, places like that, where 
the Black people in those towns sent missionary barrels of 
shoes and useful clothing. And those things were distributed 
out of the undestroyed part of Booker Washington High School.
    The Red Cross entered the field a little later because the 
local Red Cross had said they would not give people anything 
unless those people came and washed their clothes and took care 
of their children because they were desolate for help at home. 
Finally, the National Red Cross sent Maurice Willows, and 
things got better so far as issuing of materials.
    But the damage that was done was not only the material 
things. A house destroyed, the entire neighborhood destroyed, 
the businesses destroyed, all the services destroyed, our 
school bombed on the day that we should have been getting our 
report cards to move up to the next class so that the children 
of Tulsa were very devastated.
    The machine gun captain decided that he had to make my 
mother leave the house as she was pouring water on the house to 
try to keep it from burning. So he sent somebody down and said, 
``Tell that woman to get out of there with those children and 
go to a place of safety.'' My mother was trained in oratory at 
Tuskegee.
    And she said, ``I cannot go until I talk to these people 
who brought their children to watch this catastrophe.'' And my 
mother started to speak to them to say it would be visited upon 
the children unto the third and fourth generation at which 
point the people said, ``Stop that woman. She is scaring our 
children.''
    And a man came over and said to her, ``When the mob gets 
out of your house, I will go down and put out the fire if I 
can.'' And there was evidence at our house that he did do that. 
But, of course, most things were lost.
    I see I am over time. And I thank you again for letting me 
speak.
    [The prepared statement of Ms. Hooker follows:]
                 Prepared Statement of Oliva J. Hooker
    My name is Dr. Olivia J. Hooker, and I currently reside in the 
State of New York. I was born on February 12, 1915, and I am a survivor 
of what is known as the Tulsa Race Riot of 1921, but what was really a 
massacre of the Greenwood neighborhood of Tulsa, then called the 
``Black Wall Street.''
    My parents Samuel and Anita Hooker came to Tulsa from Holmes County 
Mississippi. At the time of the Riot, I lived on Independence Street in 
the Greenwood District of Tulsa with my parents and four siblings.
    At the time of the riot, my parents owned a home on Independence 
Street valued at $10,000 and a clothing store at 123 North Greenwood 
Avenue that was one of the most prominent stores in Greenwood. My home 
was severely damaged but not destroyed in the riot, however, the mob 
completely destroyed my parents' business, which was described as ``a 
total loss.''
    Furnishings valued at $3000 were either stolen or deliberately 
smashed or destroyed. Jewelry valued at $1000 furs valued at $1000 and 
silver valued at $500 were also stolen. The estimated total loss of 
goods displayed at the store was $100,000. That makes a total loss of 
$104,000 to our parents during that riot.
    My parents were distraught over the loss of the many beautiful 
things they had purchased with their hard-earned money. The mobs hacked 
up our furniture with axes and set fire to my grandmother's bed and 
sewing machine. I still remember the sound of gunfire raining down on 
my home and that the mob burned all my doll's clothes. After the riot, 
my mother saved all the artillery shells that mobsters had put in all 
of our dresser drawers.
    As a child, I had believed every word of the Constitution, but 
after the riots happened, I realized that the Constitution did not 
include me.
    After the Tulsa violence, my mother took our family to Topeka, 
Kansas, while my father remained in Tulsa to try to restore his bombed 
out business. My father filed a lawsuit against the insurance company 
for the value of the destroyed property, but a judge threw the case out 
in 1926 or 1927.
    Later, we moved to Columbus, Ohio, where my sisters and I graduated 
from Ohio State University. After teaching third grade for seven years, 
I enlisted in the United States Coast Guard, becoming the first African 
American woman to enlist and go on active duty in the Coast Guard, then 
a part of the U.S. Navy during World War II. I earned an M.A. from 
Columbia University Teachers College on the GI Bill, and a Ph.d Degree 
at the University of Rochester where I was one of two black female 
students. I taught in the Graduate School of Arts and Sciences at 
Fordham University, retiring as Associate Professor in 1985.
    We did go on with our lives after the riot but the memories of what 
happened to us then will never go away. The injustices we suffered the 
two days of the riot and the injustices we suffered after the riot when 
insurance companies failed to pay riot victims for their losses and 
when court officials summarily threw out our riot victims cases are a 
blot on Tulsa's image that have not been erased to today.

    Mr. Nadler. Thank you, Professor Hooker.
    Professor Ogletree?

   TESTIMONY OF CHARLES J. OGLETREE, JR., DIRECTOR, CHARLES 
 HAMILTON HOUSTON INSTITUTE FOR RACE AND JUSTICE, HARVARD LAW 
                             SCHOOL

    Mr. Ogletree. Thank you, Chairman Nadler, and thank you, 
Chairman of the Judiciary Committee John Conyers, and also the 
minority leader, Congressman Franks, for this hearing.
    These are challenging times for all of us. I represented 
these clients when I first met them in 2002 and, with the 
support of a volunteer group of lawyers, have represented them 
ever since.
    When we filed this lawsuit on their behalf on February 28, 
2003, there were 150 living survivors. Since then, 70 have died 
in the last 3 years. They are dying every day.
    And one of the amazing things is that there is a edifice 
over the Florida Supreme Court. The court is where the injured 
flock for justice. And that is where we are today.
    This report, thanks to Don Ross and Al Brophy and people 
like Edie Fay Gates, this documents Oklahoma's history. It is 
here, every single word, every single verse, every single 
crime, every single incident. And it took 80 years to unbury an 
American nightmare. But they did it. They did it.
    We have been in court--and if you read Judge Ellison's 
opinion of the District Court, if you read the 10th Circuit's 
opinion, no court has ever said that these clients are barred 
by a 2-year statute of limitations, which is normally the law. 
They said that the criminal justice system, the legal system in 
Tulsa, was not available to people of African descent at that 
time. And indeed, Judge Ellison said they couldn't have filed 
suits in the 1920's, 1930's, 1940's, 1950's or 1960's because 
the courts were just not open.
    And then in an amazing feat of creative imagination, he 
said, ``Perhaps they should have filed in the 1960's.'' We went 
to the 10th Circuit Court of Appeals. The 10th Circuit said, 
``We don't know when you should have filed this lawsuit, but 
sometime before today.''
    ``Sometime before today.'' What kind of justice is that 
when our courts are--if they had said, ``You should have been 
in court by 1923; it is over.'' They didn't say that because 
they knew the justice system did not work.
    And what makes this so important is that these aren't 
individuals who are asking for something that they didn't earn. 
When you look at these photographs, the Greenland Theater was a 
treasure in Oklahoma and Tulsa. When you look at the J.B. 
Stratford Hotel, Blacks couldn't stay any other place when they 
came to Oklahoma to perform. They stayed there. They had to 
live in segregation. That was destroyed. When you look at the 
businesses and the homes and the idea that no one has ever been 
held responsible criminally or civilly for destroying a 42-
block Black community. No one has ever been held responsible.
    And this role is important because if we look at our own 
history, when I think of that Florida phrase, I think of this 
Committee. This is where the people flock for justice. When 
citizens saw their families exterminated in the holocaust, they 
couldn't go to court. They tried to explain their history, but 
there was no one there to speak for them.
    When American citizens in the Second World War were placed 
in interment camps in the Western part of the United States and 
stayed there, it took a Republican Senator Bob Dole and a 
Democrat Senator Daniel Inouye to pass the 1988 Civil Rights 
Act decades after the incident to give them some reparations.
    When Black farmers throughout America found that they 
couldn't go to Virginia and Michigan and all over the country, 
North Carolina to get their rights, Congress stepped in and 
said, ``They come here, and we will address their needs.'' 
Every single time the courts have said no, someone with moral 
authority has spoken up to make sure that these injustices are 
addressed.
    And this isn't, as Congressman Nadler said, it is not a 
riot. It really is ethnic cleansing. If we go back to Oklahoma 
City, a tragedy that all of us suffered from on April 19, 1995, 
there are monuments. The president of the United States was 
there. Every victim has been compensated. Every person 
responsible has been punished. We will never forget April 19, 
1995, and nor should we.
    When we go to September 11, 2001, thousands of people lost 
their lives, friends of mine, personal friends. And we have 
compensated those victims. We have tried to bring those 
responsible to justice.
    And here we have document evidence record that hear the 
people. Otis Clark, Wess Young, Dr. Olivia Hooker, John Hope 
Franklin--they have never, ever, ever had their day in court. 
We simply ask you, Chairman Nadler and this Committee, to make 
sure that they get justice before they die.
    Thank you.
    [The prepared statement of Mr. Ogletree follows:]
             Prepared Statement of Charles J. Ogletree, Jr.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Nadler. Thank you, Professor.
    The Chair will now recognize himself for 5 minutes.
    Professor Ogletree and Professor Brophy, the facts having 
been well-established, the real question, and, in fact, I think 
the only question here is the question of the statute of 
limitations.
    Now, we don't have a Federal statute of limitations. The 
courts have borrowed States' statutes of limitations. The 
courts have stated that equitable principles should be used for 
determining to what extent we will borrow the States' statutes 
of limitations.
    Professor, could you place for us the bill before us would 
reopen for us in 5 years, very much like a toxic tort statute?
    Mr. Ogletree. Right.
    Mr. Nadler. Could you place that for us in the context of 
what we have previously done or how courts have ruled reopening 
statutes of limitations in light of the fact that the courts 
were not open for so many years? And also elaborate what was 
significant about the 1960's in one of the court decisions.
    Mr. Ogletree. Well, thank you. Let me take the second 
question with Judge Ellison.
    Judge Ellison, like the 10th Circuit, they both understood 
the magnitude of the travesty that happened at Oklahoma City. 
And they knew that, as one of the slides show, in the 1920's 
mayors, public officials, a lot of the elected officials were 
associated with the Ku Klux Klan.
    And Judge Ellison said in unequivocal terms the courts were 
not open. They were not available at all. But his sense was at 
some point America had a civil rights movement. But as John 
Hope Franklin has told you, people who were born in 1990 had no 
idea that this happened in 1921. That is the issue.
    There was no record of this until 2001. And that is what 
makes it so important. And that is why we filed the lawsuit. We 
filed the lawsuit within 2 years of having determined that this 
was necessary.
    The 10th Circuit said an extraordinary thing for a court to 
say. They didn't say that the plaintiffs had no claim to bring 
the lawsuit. They said two important things. One, a book was 
written in 1982, a book about the Tulsa Race Riots. Perhaps the 
survivors, Dr. Olivia Hooker, perhaps Otis Clark, perhaps Wess 
Young should have read this book in 1982 and realized what 
happened and filed a lawsuit. The author of that very book 
testified and said, ``You know what? What I wrote in 1982 
didn't even address the scope of what happened. I didn't find 
out until I, Scott Ellsworth, became a witness.''
    Mr. Nadler. So in other words, the court was looking or 
thought it had found some hook----
    Mr. Ogletree. Something, some point----
    Mr. Nadler. Some hook, the book, the civil rights laws of 
the 1960's, on which it said, after that, people should have 
known and should have--and the statute should have started----
    Mr. Ogletree. Indeed. What they were really saying is that, 
``We can't solve this because we are unable to.'' The report 
tells us this evidence was not disclosed. And this is a 
Committee appointed for the State of Oklahoma. And it gives 
you, Congress, a chance to look at this and give reasonable 
time.
    My only concern is time because clients died last week. 
They are dying every week. Even with this 5-year statute of 
limitations, my hope and expectation is that it can be done 
sooner. Otis Clark is 104 years old. He has forgotten more than 
he has remembered.
    Mr. Nadler. Obviously we want to do it as quickly as 
possible.
    Professor, would you comment? Professor Brophy?
    Mr. Brophy. Mr. Chairman, thanks very much.
    As you know, the statute of limitations is an artificial 
bar to something that would otherwise be a valid lawsuit. And 
along those lines, I would like to introduce my colleague, 
Suzette Malveaux's terrific article in the George Washington 
Law Review specifically addressing statute of limitations for 
old civil rights cases.
    In terms of precedent, it strikes me as though one of the 
key precedents here is what you did for Black farmers in the 
Department of Agriculture case where you tolled the statute of 
limitations.
    When you are thinking of things that go back further even 
than the Tulsa Race Riot, I might refer you to the California 
legislation restarting the statute of limitations for victims 
of the Armenian genocide where folks who had not had--whose 
relatives died in that tragedy and then never received 
compensation from insurance companies, the State of California 
restarted the statute of limitations.
    Mr. Nadler. Thank you very much.
    And my last question is really--Professor Brophy, again. 
Given the fact that this is grounded in 1983, among other 
things, that this is State involvement, that this is 
involvement by the Federal Government as well as the State and 
local governments.
    Does that affect, in your judgment, the equities of tolling 
the statute?
    Mr. Brophy. I believe it does. And I think it affects it, 
makes it easier to restart the statute of limitations, in that 
this was done by the State and local governments. And it 
strikes me as though those folks have less of a claim to a 
statute of limitations.
    We have statute of limitations to give artificial repose to 
individuals. And I think the claims are much less strong in the 
case of a government than private entities.
    Mr. Nadler. Thank you very much.
    The Chairman's time is expired. I will now recognize the 
distinguished Mr. Franks for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman.
    And I want to thank the panel for your very moving 
testimony.
    As I said in my opening statement, I believe that the 
greatest challenge that we have in humanity is somehow 
recognizing each other in a way that carries with it the human 
dignity that is imparted to every person by God Almighty. I am 
convinced that that remains our greatest challenge even today.
    There are examples throughout history that are replete with 
these kinds of tragedies. You know, in Nazi Germany we saw 6 
million Jews murdered along with people of other groups as well 
that simply were looked down as inferior by this Nazi war 
machine. We saw in the whole worldwide tragedy of human slavery 
how something continued for thousands of years and that somehow 
we as human beings were not able to recognize what a tragedy 
all of that was.
    And we see it, in my judgment, today with abortion on 
demand. We don't recognize, I think, the loss of 50 million of 
our own children.
    And I believe that all of us have some kind of historical 
reference in our own lives. And my own grandmother was a child 
of a Cherokee and talked often about some of the things that 
her mother had told her of the Trail of Tears.
    And I think that the greatest way that we can honor the 
victims and even to somehow repay the victims is to use their 
tragedy to somehow better the human family now and in the 
future.
    And quite honestly, Mr. Chairman, it is a hard subject for 
me because I am not sure that the bill that is considered here 
is the best way to do it, because it seems to me that it 
penalizes those who did not do this tragedy and ends up helping 
those that weren't the victims of the tragedy.
    And that is a great concern to me because I believe if you 
apply the principles of this bill to all of the ones that I 
just mentioned, I guess we would just get lost. And somehow as 
a human family we have to come together and realize that at 
least we can say no more. It doesn't have to continue like 
this.
    And so, I guess my question to you, Professor Ogletree, 
first is, are there any other persons who are responsible for 
the actual wrongs in Greenwood still alive today?
    In other words, you know, according to my math, if they 
were of maturity age at the time, they would have to be around 
104 years old. I know that we have one 104-year-old victim here 
today.
    Are there any of those that were the perpetrators of this 
tragedy alive, as far as you know?
    Mr. Ogletree. No.
    And the more direct answer to your question, Congressman 
Franks, is that--two things.
    First of all, there were murders in 1921. There is no 
statute of limitation on murder, even though those responsible 
are no longer with us. But secondly, there are claims of 
descendants.
    And this was State action. This was not just individuals. 
These were sheriffs deputizing people, going into pawn shops, 
gun shops, et cetera.
    And the graphic tells you that even though--here is the 
issue, the catch-22. In 1921, they couldn't go to the court. 
They had to wait. Now that they have counsel, now that they 
have the evidence that was buried, now we are being told it is 
too late.
    That is where Congress comes in. There is an equity and 
justice point here. I am not trying to prosecute someone who 
killed Otis Clark's relatives in 1921 or took Dr. Hooker's 
property in 1921. But the reality is that there was State 
action.
    And we didn't prosecute anybody in 1988 with the Civil 
Rights Act that was passed by Senator Dole and Senator Inouye. 
They just said Congress has a higher moral duty to do 
something.
    We didn't prosecute anybody because Blacks were denied 
their right to their farming subsidies. When you passed the 
congressional subsidy for them, no one was punished. That was 
not the issue.
    The issue is, how do we correct a wrong before they die?
    I mean, they are here today, and they have been here. And 
my sense is that we can have a wonderful, I think, theoretical 
argument about, you know, who to punish. But in some sense, 
those who are the successors have some obligation.
    I think it was high-minded of the State of Virginia to 
express its regrets for slavery, as we heard from the State of 
Maryland. They didn't hold anybody as slaves, but the current 
generation said, ``It is on our watch.''
    I thought it was important for President Bush to have the 
Tuskegee airmen there, to apologize and salute them. It was 
important for President Clinton to have the syphilis experiment 
men there to apologize.
    At some point, somebody has to say, ``I didn't do it, but 
it happened on my watch, when I had the authority, the moral 
authority to correct it.''
    So we can get into that trap of, ``No one is there.'' But I 
think we can say, ``Let's look back and solve it,'' in the 
sense it helps all of us and doesn't punish anybody but, in a 
sense, sets the record straight and, I think, achieves a 
greater goal for all of us.
    Mr. Franks. Mr. Chairman, my time is up. But I would just 
like to express my agreement with the sentiments of Mr. 
Ogletree, that it is right and appropriate for those of us in 
later times to express regret for some of the tragedies that 
occurred in the past.
    And I think, again, the greatest way that we express that 
regret is to make sure on behalf of those victims that such 
tragedies are not repeated.
    Mr. Nadler. Professor, before I go into the next, let me--
Professor Ogletree, is it not true that many of the descendants 
in lawsuits that might be brought are the State government and 
insurance companies, which are ongoing entities?
    Mr. Ogletree. That is exactly right.
    Mr. Nadler. Thank you.
    Now I will recognize the distinguished Chairman of the 
Committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Nadler.
    I hope that your discussion with Trent Franks has made it 
perfectly clear that we are following a long tradition in terms 
of tolling the statute of limitations. This is not new 
information.
    And I join Professor Brophy in asking unanimous consent 
that this tremendous article written by Professor Suzette 
Malveaux in the George Washington Law Review--which not only 
discussed the statute of limitations as a policy analysis, but 
applies it specifically to the Tulsa Riots of 1921 be submitted 
for the record.
    Let me now turn. The second question I am going to ask 
after I have talked with Dr. John Hope Franklin is to Professor 
Ogletree in, where do we go from here? Because it is not over. 
Once we toll the statute of limitations--is only the very first 
step in the beginning. I have the confidence to believe that 
this Congress will act appropriately.
    But before we come back to that, I wanted to ask Dr. John 
Hope Franklin about, just looking back on this 1921 tragedy, 
how was it created? How did it happen that so much hatred 
exploded and so much violence took place?
    And would Tulsa be much different today if this riot had 
not occurred?
    And are there other comparable race riots that you draw 
analogy between the Tulsa riot, Dr. Franklin?
    Mr. Franklin. Well, yes. One has to remember that this is a 
period of extreme violence. It can hardly be called civilized, 
the relationships of people from the beginning of the 20th 
century right down to the time of the riot in Tulsa. There had 
been riots in Washington and Chicago along with Texas, Rosewood 
and many other places in the country.
    I think what is also interesting to observe is--and I have 
learned this from reading the journals, the newspapers and so 
forth in connection with something else--that you get a very 
remarkable degree of admission and contriteness on the part of 
even the Tulsa community in the months following the riot. You 
would have thought they would have come out and been pouring 
all of their largess on the people who were the survivors, 
except that after making these pious statements, nothing 
happened. They didn't do anything about it.
    They threw things out of court that might have pursued 
justice in the long run. But what we need to remember is that 
this comes on the heels of enormous, enormous racist sentiment 
that is expressed even during World War I. It is to be 
remembered that Black soldiers who were in the war were not 
permitted to be a part of the United States Army in Europe.
    They had to be attached to the French Army. And then having 
been attached to the French Army, being treated somewhat 
equally, then the United States doesn't want them back unless 
they can go through some sort of period of retraining so they 
can go back to their inferior status which they had occupied in 
the United States.
    So we have got a climate of hostility, of barbarism that is 
widespread in the years from 1918--called the Red Summer of 
1918 because there were so many riots--down through 1922 or 
1923.
    Mr. Conyers. Thank you so much for putting that in 
perspective.
    Let me ask Professor Ogletree, where else do we go from 
here? Let us assume we get the limitations period tolled.
    Mr. Ogletree. Well, I wish I had both been aware and able 
to answer that question 25 years ago because I would say we go 
back to Tulsa and we tell the stories. Thanks to the work of 
Don Ross and Edie Fay Gates, we have captured some of the 
testimony.
    Edie Fay Gates has interviewed hundreds, hundreds of 
African-Americans who lost property, family who lost lives, 
businesses that were destroyed and have that record. But 
virtually every person that she has interviewed from the early 
times is now dead. And the numbers are staggeringly low.
    So I also hope there is also not a false sense of security 
that we toll the statute of limitations but we can't help Otis 
Clark explain what happened to his home in 1921, you know, 87 
years ago. Dr. Olivia Hooker documented all of her family's 
losses with great detail. And we have that. But we have a 
documentary on the survivors. And what is sad about it is that 
we started interviewing people in 2004, 2003. And we have 
dozens of survivors interviewed.
    Eighty percent of the people who were interviewed to tell 
their story are dead, 80 percent. And so, I am hoping we can 
not only address this in terms of those who are living, but 
also find ways through descendants to establish some of these 
claims. And what we do know--we have the 42-block area. We know 
where they lived. And we know what was lost.
    Mr. Conyers. Yes, thank you, Dr. Franklin and Professor 
Ogletree.
    Mr. Ogletree. Thank you.
    Mr. Nadler. The time of the gentleman is expired.
    Mr. Pence is recognized for 5 minutes.
    Mr. Pence. Thank you, Mr. Chairman. And thank you for 
holding this hearing on this appalling moment in American 
history.
    And I want to thank this thoughtful panel and particularly 
Professor Ogletree, with whom I had the opportunity to visit in 
chambers with the Chairman last week.
    Thank you for your role over many years, Professor 
Franklin, yours in bringing to light this travesty, national 
travesty of justice.
    I am especially anxious to have the opportunity to meet 
some of the vigorous survivors of this incident, who I know 
still continue to--were on CapitOl Hill this week and may be 
present today. And I would greet them as well.
    Thank you for your example of persistence and determination 
in the interest of justice. I commend you. And I am inspired by 
that persistence.
    Professor Ogletree, you and I had a chance to speak 
privately a little bit ago, but I thought it would be helpful 
to have you unpack some of these thoughts.
    And, Professor Franklin, the same.
    I find myself, as a student of American history, fascinated 
by what I like to refer to as progress interrupted in Black 
America.
    And it seems like what happened in 1921 in Tulsa, Oklahoma, 
and as, Professor Franklin, you stated, happened elsewhere in 
the country, while we feel a sense of moral outrage because it 
was an incident motivated by and organized around racial 
enmity, but it seems to me that, as I said to you last week, 
Professor, it feels a bit more like envy than racism.
    Madam Walker of Indianapolis fame is a great example of an 
entrepreneurial class in Black America that had within a single 
generation not only wrestled free from the shackles of slavery, 
but whose economic wealth was growing at a pace that 
significantly outpaced the broader population, according to 
most statistics from roughly immediately post-reconstruction to 
the advent of the New Deal.
    Black America was expanding economically and aggressively. 
There was an entrepreneurial class.
    And, Professor, it seems to me that I would love to get 
your sense because, as we think in this legislation about 
extending the statute of limitation, which is not without 
precedent, would be highly unusual to do, or, as some have 
suggested, whether a specific relief bill would be more 
appropriate in this case, whatever extraordinary relief the 
Congress would consider in this case, is it simply justified by 
the fact that this was an incident of barbaric racial violence 
that claimed the lives of 200 African-Americans and the one 
square mile Black district in the city? Or was there an 
economic motive here?
    Was this economic progress interrupted that was, if you 
will permit a gross analogy, thinly veiled under a sheet of 
sectarian racist sentiment?
    Professor Franklin?
    Mr. Franklin. Well, I could throw the question back to you 
by pointing out--asking if Madam Walker had been White, would 
there have been some kind of resentment of her.
    Mr. Pence. Right.
    Mr. Franklin. I think the answer--if I may say so, I would 
answer that question by saying no; that she is a part of a 
contradiction. She is a part of a resentment that she cannot 
rise because the whole culture of this country, not in 1915 or 
1916 when Madam Walker came on the scene, but for two centuries 
before that, we had had very carefully woven into our 
Constitution, into our legal system and everything the notion 
that the Madam Walkers of this world must not rise.
    Mr. Pence. Right.
    Mr. Franklin. They cannot. They cannot because they are not 
allowed to. It is contrary to the tradition, history, culture, 
law, everything of this country that she cannot--she has no 
business rising.
    And I think that there might have been some sentiment like 
that in the Hookers' store, that, ``What in the world was Mr. 
Hooker doing acting like he is not a subservient black 
person?'' You see? He has got a store, and he has got goods in 
the store. He is acting out of order, that is not what he is 
supposed to be doing. He is supposed to be working for someone 
else. The experiences I have had, as a grown man over 80, of 
people looking at me and saying, ``You are out of order. You 
are out of place.''
    The night before I got the Presidential Medal of Freedom, I 
was giving a party at my club, and I went down to see whether 
all of my guests had arrived. And when I got in, there was a 
woman, a White woman, who met me at the foot of the stairs. And 
she said, ``Here, you go and get my coat.'' What was I doing 
there, except that I was there to serve her? You see?
    You have to understand what this--it is deep. The culture 
is deep, and is abiding. It is persistent. It is still here, 
which I think we ought to recognize.
    Mr. Pence. And they are linked.
    Mr. Nadler. Thank you. The gentleman's time is----
    Mr. Pence. They are linked. Thank you.
    Mr. Nadler. The gentleman's time is expired.
    The Chair recognizes the gentleman from Minnesota for 5 
minutes.
    Mr. Ellison. Professor Franklin, I wonder if you could 
share your thoughts on this subject. There has been 
demonstration of contrition and sadness, and even it has been 
said perhaps one of the best things or perhaps the only thing 
we could do is just say ``no more.''
    Given that there are survivors who are still around, there 
is still economic loss, tremendous economic loss that is still 
calculable, and given that the historic record has been laid 
out, is simply saying ``no more'' good enough?
    Mr. Franklin. No. I would say ``no more'' is not good 
enough.
    Mr. Ellison. Professor Ogletree, do you have any views on 
this subject?
    Mr. Ogletree. I agree.
    And I actually want to applaud Congressman Pence for 
raising the issue of compensation for the economic losses, 
because they were substantial. And I think that is exactly the 
direction. Whatever the cause may be, the economic losses were 
substantial.
    Tulsa was booming in terms of the oil industry, the untold 
secret. Envy? Yes. Power? Yes. I mean, the Dreamland Theater, 
the Stratford Hotel--if you look at this community, it was 
thriving, thriving despite segregation, despite racism. This 
wasn't Tulsa. This was a Black segregated community that 
prospered economically.
    And the jealousy was, ``They have something that they 
shouldn't have.'' But everything they had was earned--not 
government, not public. This was earned dollars, earned 
property, earned businesses.
    And there is no end to it. The only end to it, I think, is 
to try to figure out a way to both provide some form of 
compensation for the survivors and their descendants and also 
some correction of history.
    The one great thing about the Civil Rights Act of 1988, it 
didn't just compensate people, but there was a public 
commitment to educate so that it never happened again.
    And to put Congressman Franks' question in context--the 
Holocaust, 1930's; internment, World War II, 1940's; Black 
farmers, 1950's, 1960's, 1970's, 1980's and 1990's; Tulsa, 
1921--it proceeded all--we have corrected all of the rest. But 
here is one that is unmistakably clear.
    Oklahoma City, 1990, unmistakably clear; race riots in 
North Carolina. We are doing all of these things. But here is 
one that we have not addressed. And I think your efforts will 
make sure it is not enough. It is time to do it.
    Mr. Ellison. Yes. You know, Professor Ogletree, I just want 
to add that, you know, even in the great State of Minnesota, in 
1921, three African-American workers in a circus were lynched. 
And it is a horrific tragedy that some people in Duluth, 
Minnesota, still talk about.
    But I just want to ask Professor Brophy, do you believe 
that there are still substantial remedial measures that could 
be made available to the victims in this case?
    Mr. Brophy. Thank you, Mr. Ellison. Yes, I do.
    And what I think is so critical is that there are people 
still alive who suffered the harm. Right? Oftentimes when the 
subject of reparations, for example, for slavery comes up, 
people say, ``Well, nobody is still alive who was enslaved.'' 
What is so critical here and what we saw in the Civil Liberties 
Act of 1988 was that direct living connection.
    We have the ability, I think, to restore something of that 
dreamland that existed for folks who made their way against the 
tide in Greenwood. And I hope either through this legislation 
or just direct remedial legislation will do that.
    Mr. Ellison. And perhaps let me just change the direction 
slightly. In this debate, not just here today but in other 
arenas, it is often said that, ``Well, you know, the people who 
did this, we don't really know exactly who they are. Therefore, 
what can we really do?"
    But could you explain to the panel, to the folks who might 
be listening, what difference it makes that the State was 
deeply and fundamentally implicated in this and this is not 
simply a matter of one private individual harming other private 
individuals? Could you draw the connection to the State?
    Mr. Brophy. Sure, right. The way in which people have 
spoken about this riot, including the 10th Circuit, was as an 
angry White mob. And I think what distinguishes the Tulsa riot 
from so many other instances is this is not a claim for general 
society reparations. This is a claim for something in which 
there has been specific, well-documented government actors--
special deputies, the local police force working in conjunction 
with the local, not the out-of-town, the local units of the 
National Guard--led to the destruction of Greenwood.
    And I think that is what distinguishes this. And that is 
some of the really important and new evidence that the Tulsa 
Race Riot Commission was able to put together, that this was 
the government doing this.
    Mr. Nadler. Thank you. The gentleman's time is expired.
    I now recognize the gentleman from Virginia for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Professor Ogletree, let me just get a couple of quick 
questions just to make sure we understand what the bill does. 
The bill just extends, reopens the statute of limitations. And 
if it passes, that would not guarantee anyone's victory. It 
would only allow them to bring the case on the merits. Is that 
right?
    Mr. Ogletree. That is correct.
    Mr. Scott. And the plaintiffs in the case are already 
identified. They have to have been in the original case and 
denied their rights----
    Mr. Ogletree. Well, the----
    Mr. Scott [continuing]. To be heard.
    Mr. Ogletree [continuing]. Action that we filed was on 
behalf of all of the surviving plaintiffs and identifiable 
descendants as of 2003.
    Mr. Scott. And so, is that list of people known?
    Mr. Ogletree. Yes, we have the documentation. Edie Fay 
Gates has done a tremendous job of compiling data.
    And what is interesting--just to be clear about this--the 
vast majority of the survivors are not in Oklahoma. If you 
think about 1921 when their homes were destroyed, there was no 
place to live. There was no shelter. They are in California, 
they are in New York, they are in Texas. So they are all around 
the country. And we are trying to gather them.
    Mr. Scott. But the list is known?
    Mr. Ogletree. That is exactly right.
    Mr. Scott. And the defendants are insurance companies and 
local and State government?
    Mr. Ogletree. That is exactly right.
    Mr. Scott. And if they are able to bring that case, they 
would have to show what the insurance companies didn't pay and 
what the governments actually did. Is that right?
    Mr. Ogletree. Right.
    Mr. Scott. Now, could you explain if there had been no 
riot--well, because of the riot what the insurance companies 
were--unjust gains and what the plaintiffs actually lost?
    Mr. Ogletree. Yes. The Tulsa Race Riots Commission did a 
very thorough examination and found records that had been 
buried for decades to show who was insured, where they lived, 
the amount of loss and how the courts absolved the insurance 
companies back in the early 1920's based on actions by Buck 
Colbert Franklin.
    John Hope Franklin's father was the lawyer trying to 
resurrect this in 1923. And the court dismissed all those 
claims. But the records from the early 1920's we now have. And 
it lays out many of the plaintiffs--not all, but many of the 
plaintiffs. And we have many of the descendants of those 
plaintiffs as well.
    Now, here is the big problem. We have to be clear, though. 
I mean, on May 31, 1921, it explodes. June 1st--if you think 
about this, this is a war. This is a bomb. You can't go to the 
corner store. You can't go to your bedroom. You can't go to 
your law office to see a lawyer.
    I don't know if we have a slide here, but Buck Colbert 
Franklin's--I mean, talking about the courage of the 20th 
century. His office was destroyed. His home was destroyed. He 
found a few law books left over and literally filed a lawsuit 
in a tent on the streets of Tulsa, Oklahoma, where he was to 
represent clients who came through.
    And it shows John Hope Franklin's father in that context 
trying to figure out what to do. This is what was left. Think 
about a lawyer in 1921, no telephone, no office, literally 
taking a tent, finding books and sitting there. And that is 
what--and history--this is what reminds us.
    We know what happened. We just haven't had a remedy. But I 
think those records will help us prove it in going forward.
    Mr. Scott. And, Dr. Franklin, if there had not been a riot, 
could you tell what other opportunities people would have had 
in terms of inheritance, business opportunities, educational 
opportunities, how they would be better off today had the riot 
not occurred?
    Mr. Franklin. Well, I can only speculate, Congressman 
Scott. I don't think there is any doubt but that, with the 
energy that that Black community was already displaying, if 
there hadn't been the kind of interruptions which were brought 
on by the riot and the various activities connected with it, 
there is no question but that the professional people, the 
economic enterprisers and all the rest would have moved rapidly 
and upwardly in the whole order of the scheme of things.
    I don't think there is any question but that if they had 
had the opportunity, without the interruption of the riot and 
so forth, they would have been infinitely better off in the 
next period, in the next decade, say, than they had been in the 
previous decade. I don't think there is any question of that.
    Their energy and enthusiasm and wisdom and expertise that 
they displayed even after the riot suggests to me that if they 
had had the opportunity without this kind of tragic 
interruption, they would have been far along on the road to 
prosperity and that sort of thing.
    Mr. Nadler. The time of the gentleman is expired.
    The gentleman from California is recognized for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Thank you. I always benefit from earlier questions. And I 
do find it sad to look at a middle-class wiped out long after 
the justice system was instructed to, in fact, support equal 
rights.
    But in the case of equal rights, I have a line of 
questioning that I want to understand from a standpoint of the 
legislation.
    I don't think any of us in this room have any question but 
that there was an injustice. And the injustice did not have--
because of the times, because of the system--did not provide 
you all with a remedy within the time allotted within the 
statute.
    But I have two questions. One is, if we assume for a moment 
that the State case, which you brought, expired and we cannot 
make that whole--this legislation doesn't try to preempt the 
State and tell them to do something. But from a Federal 
standpoint, if this legislation, which it doesn't appear to do, 
simply put back into place a venue for you to be made whole in 
Federal court for those State laws and Federal laws which were 
in effect in 1921, would you be satisfied?
    Mr. Ogletree. The answer is no. I think, as you can see, 
that some of the harm is both hard to ascertain and to prove, 
number one.
    And number two, you are right in pinpointing the magnitude 
of it. Think about the Jewish families that Congressman Franks 
talked about. Your name is Finkelstein, and you are trying to 
prove that your family had losses, and they say there are 100 
Finkelsteins. How do we know this is you? How can we prove it?
    And it is a question of equity. We know you were there. We 
know you lost property. We know things were destroyed. And that 
is what happened. Black farmers--their records--all the records 
were destroyed when they tried to go into an office in Kentucky 
or North Carolina. And if they never filed your claim, there is 
no records there. So how do you prove it?
    I think what----
    Mr. Issa. Sure. And I understand that. Although my time is 
limited, the question probably begs three follow-ups to maybe 
get to a full understanding.
    There are injustices on the books. I happen to have a very 
large Native American group of tribes in my district. And the 
injustices within the Native American community are probably 
the only ones that the African-Americans look at and say, 
``They had it worse.'' They were exterminated. They were 
exterminated in mass quantities deliberately.
    So when I look at the injustices, I look at a country which 
has historically tried to right the wrong. And we have done 
some through legislation. I don't believe we have ever done--I 
don't know of a precedent for it, and that is why I am asking. 
I don't know that we have ever said we are going to make a 
remedy available that wasn't available at the time, and we are 
going to say it because of the absence of a statute of 
limitation.
    The remedies that were available in 1921 or remedies which 
were passed specifically envisioning a specific event, from 
what I can tell, have not yet been linked. In other words, the 
Civil Rights Act was not intended, discussed or created in 
order to deal with injustices of 1921 retrospectively. And that 
is my question.
    This Committee has a very strong hook to the Constitution 
and wanting to look at how we can give you everything that we 
can give you to make this as just as possible but not cross 
that line. And I have concerns that are crossing the line by 
essentially saying we are going to give you rights under an act 
that was by no way, shape, or form ever envisioned at the time 
of the injustice.
    Mr. Ogletree. Professor Brophy can respond in a minute, but 
I want to show you a slide here from Judge L.J. Martin 2 weeks 
after the riot, so this is contemporary.
    Mr. Issa. No, look, I am the first to say, give you 
everything we can possibly give. My question, though, and in my 
limited time, is--and, Professor, maybe you can help me. I am 
looking for how we do this without opening Pandora's Box to 
essentially looking at everything forever that was done wrong 
by passing a subsequent and then retolling against it--and 
particularly when I look at Native Americans and reopening, 
there is no limit.
    Please, Professor.
    Mr. Brophy. No, I understand. And that is why I think it is 
so critical that this is a discrete tragedy, right, where there 
was no--this isn't general societal reparations.
    Mr. Issa. Right.
    Mr. Brophy. This is very discrete, and people are still 
alive.
    But what we are asking for is retolling the statute of 
limitations for civil rights acts that were on the books in 
1921, just not given effect. Right? We sued under 1983, which 
you folks passed around 1871. So what we are asking for is our 
chance to have a hearing on statutes that we could not have at 
the time.
    Mr. Issa. Thank you, Mr. Chairman.
    Mr. Nadler. The time of the gentleman is expired.
    The Chair recognizes the gentleman from North Carolina.
    Mr. Watt. Thank you, Mr. Chairman. And I want to thank the 
Chairman for convening this important hearing and thank Mr. 
Conyers for introducing the bill.
    I am almost mesmerized by the quality of the testimony this 
morning. I have heard Dr. Franklin speak many, many, many 
times. And I don't think I have heard him be more profound than 
he was in response to the question that Mr. Pence raised, in 
particular. We, in North Carolina, have reached the point 
where, if we are in a room with Dr. Franklin, we need to be 
listening rather than talking.
    And so, I want to direct a general question to Dr. Franklin 
that will allow him to just talk to me because I am always 
trying to be in that position as much as I can.
    One of the concerns that everybody will raise is a spin-off 
of the question that was last raised: Once we get on the 
slippery slope, what precedents are we setting for other 
situations?
    There are obviously distinctions and similarities between 
what happened in Tulsa and in other localities around the 
country. Dr. Ogletree referred to the incidents in Wilmington, 
North Carolina, for example.
    How might we frame this issue to, number one, address the 
concerns about being on a slippery slope that creates a 
precedent for other situations, yet not foreclose the 
possibility that there may well be other situations that still 
cry out for a similar kind of analysis and the possibility of 
compensation or opening or waiving of statute of limitation?
    And let me address that question to Dr. Franklin, Dr. 
Ogletree and Professor Brophy, who at some point in his 
testimony said that promises were made at the time to repair 
the community, and have the three of you kind of address that 
issue for me and the Committee's concern about the slippery 
slope.
    Mr. Franklin. Well, let me just say very briefly that it is 
my view that all of these situations are different. They have 
different causes. They have different outcomes. And so, you can 
frame your proposals to meet the needs of that particular 
situation.
    What is interesting about this is that there was a time in 
the 1920's when there was widespread expression of willingness 
to face the problem and do something about it. If you read the 
papers in 1922 and 1923, it is amazing at the effort on the 
part of local press and people writing, speaking in the local 
press. It is amazing how much contriteness you get and how 
willing the community is to face up to this.
    And then they shut down. I mean, it is real--it is a real 
shutdown. Nothing happens after about 1923 or 1924. And I think 
it was because there was this deliberate decision made. I don't 
know whether it was made by a corporate group, by the whole 
group or whether it was just reached, made by individuals.
    But after that, you don't get anything else. It is 
stonewalling after that. And there is silence, silence, 
complete silence.
    And I think that was not true in any other community that I 
know about in the post-riot period. But there was in this 
community so that the mayor who comes up in much, much later 
had never heard of it, never heard of it. And I think that is 
where it shut down.
    Mr. Nadler. Thank you. The time of the gentleman is 
expired.
    I now recognize the gentleman from Tennessee for 5 minutes.
    Mr. Cohen. Thank you, Mr. Chairman.
    I am in awe in being before you, Dr. Franklin. When I was a 
Vanderbilt student, your text, ``From Slavery to Freedom,'' was 
one of the texts I had, and I have it on my bookcase in 
Memphis. And really, to be honest, I wondered if it was your 
father because you don't look old enough to have written a book 
when I was in college. But I guess that shows my age as well. 
[Laughter.]
    Can you give us some background on the extent and the rise 
of the Klan and the strength they had in this area and in the 
South in the 1920's?
    Mr. Franklin. Well, of course, the Klan had a period of 
decline in the first part of the 20th century, and then they 
had a very great recrudescence and rise. In 1915 at Stone 
Mountain where they were really resurrected, and they 
reorganized. They were inspired, stimulated by, among other 
things, ``The Birth of a Nation,'' the first film that came out 
that year that glorified the Klan of an earlier period. So that 
they do--this is a period of great prosperity for the Klan.
    In the late teens and early 1920's, that is when they 
flourished greatly. And it is this group already organized now 
in 1915, the very year I was born, that is ready, willing, able 
and anxious to put down the Blacks of Tulsa and of Rosewood and 
of other places in the 1920's. And the Klan is flourishing all 
during the 1920's, absolutely flourishing.
    And I can remember seeing them parading and so forth. It is 
amazing. And it is so un-American. It is so anti-American. It 
is so--all of these things that we stand for. And they not only 
do that, but they are glorified in doing it and celebrated.
    I can think of no other--I don't know that there is 
anything that could happen where they bring their children to 
lynchings, pass out the body parts as souvenirs and continue 
this kind of action in the face of what we ought to have in the 
way of law enforcement. There is no enforcement of anything in 
this period. And it is the Klan's day.
    Mr. Cohen. If I remember my history in the 1920's, I think 
they elected some governors or might have come close to it. I 
mean, they hit a peak in the 1920's, did they not?
    Mr. Franklin. Yes. Yes. I would not be able to say that 
Governor So-and-So was elected by the Klan, but----
    Mr. Cohen. Right.
    I would just like to comment. And I know I have heard 
before people say, ``Well, we can't make up for past grievances 
and we need to move on.''
    But it is kind of like, if you had a football game and you 
had one team and you didn't give them shoulder pads and you 
didn't give them cleats and you didn't give them helmets and 
they didn't have training and they didn't have Gatorade and the 
officials were crooked, and you played the game, and you played 
the game, and you played the game, and all of a sudden you 
realized it is getting near the end of the game and it is 72 to 
nothing, you go, ``All right, this was a mistake. We are going 
to give you shoulder pads. We are going to give you real 
helmets. We are going to start to give you Gatorade and train 
you and all the right things. And we are going to have real 
good officials now,'' but it is 72 to nothing, and there is 3 
minutes left. That is not fair.
    And that is what you are saying when you say, ``Well, we 
just can't make up for these. They happened in the past, but 
let us just let bygones be bygones, and let us start over 
now.''
    There are a lot of companies that are ``So-and-So and 
Sons,'' or ``So-and-So, So-and-So, So-and-So, So-and-So and 
Sons.'' But African-American people who were in Tulsa couldn't 
be that because their property and their businesses were 
destroyed. And they didn't have that opportunity. They didn't 
have capital going through generations to give them 
opportunities.
    And statute of limitations are basically for the ordered 
society. It is for who is in control. It is for the defendant. 
It is never for the plaintiff. It is to give people who are 
liable a date that they can clean up their books and move on.
    And this is such an horrendous case that there should be 
some way to get beyond the statute of limitations. And we need 
to do that, because statute of limitations aren't for people 
who have been aggrieved; they are for people who were the 
aggriever. That is what they are all about. And that is what a 
lot of the system is about, is a defense bar.
    So I am pleased that the Chairman of the Subcommittee has 
held this hearing and that Chairman Conyers has brought this 
bill. It has been edifying to me. And I am going to do what I 
can to follow the lead to see justice is brought forth.
    And I thank you.
    Mr. Nadler. Thank you. The time of the gentleman is 
expired.
    I now recognize for 5 minutes the gentlelady from Texas.
    Ms. Jackson Lee. Let me thank the Chairman very much.
    And let me thank the Chairman of the full Committee for a 
concise, constructive and forthright initiative through 
legislation.
    If I might for a moment reflect on the crossroads of 
history and comment on the panel that is before us, because I 
think sometimes history crosses paths and we have choices to 
make in the direction that we travel.
    Let me acknowledge Dr. Brophy because he comes out of a 
segregated South. And when I say that, he now teaches at the 
University of Alabama. And he is here before us to make an 
argument in support of relief, if you will, for those who have 
been aggrieved and makes one speechless about how they have 
been aggrieved.
    Dr. Franklin, someone had mentioned how youthful you look, 
but how interesting it is that you are the son of a survivor or 
a son of one of those who, not only was at the cornerstone of 
helping those who had been grieved, but now you have come to be 
a premier historian for this nation and I might say for the 
world.
    I do want to as well out of a moment of personal privilege 
acknowledge Dr. Hooker. And I will ask her the first question 
because she is a living survivor but yet the first African-
American woman at the Coast Guard or joined the Coast Guard, 
but I note a meritus professor at Duke University School of 
Law. That is no short accomplishment.
    And, Dr. Ogletree, Professor Ogletree, you come from the 
school of W.E.B. Dubois, however he could have gotten there. So 
I want to make note of this panel.
    Dr. Hooker, let me ask you as I try to make sure that we 
understand that H.R. 1995, the legislation that Chairman 
Conyers has offered, really goes no further than what this body 
has been asked to do in times past. I don't think it goes any 
further than the 13th, 14th, and 15th amendment. And why I say 
this is that it is a pathway for seeking remedy.
    There is nothing in this--this is not a private bill which 
says--and as we pass this, we will dispense certain dollars to 
these survivors or their descendants. Mind you, through 9/11, 
as my colleagues have said, we actually through a congressional 
action--and certainly, that was a horrific tragedy--actually 
dispensed or created a vehicle for monies to be dispensed.
    So we have gone further than this legislation. I think it 
is very important to let everyone know that this is a four 
corners document. It ends on this page of the document. It says 
you can go to court.
    Dr. Hooker, would you tell me again. You said you looked 
out the window, your mother showed you a gun, a machine gun 
with an American flag. Was that accurate? Is that what you said 
in your testimony?
    Ms. Hooker. That is what I said. And that is what we 
experienced. The machine gun captain, when he ordered us out of 
the house, said, ``I can't protect you.'' But the guns and the 
bullets were hitting the house. He said he was shooting at the 
mob, but it was hitting the house and could have killed us.
    Ms. Jackson Lee. So you were confused because, whether or 
not he was part of the State action that we speak of, it was 
unclear because the bullets were hitting the house?
    Ms. Hooker. It was unclear to me why someone who was sent 
to protect you was not protecting you. And they took the men 
away. And my 8-year-old brother was one of the ones they 
interned before they turned the mob loose. In other words, they 
cleared out all the male population and locked them up, and 
then said to the mob, ``There is nothing out there but women 
and children.''
    Ms. Jackson Lee. And that was a State action, might I make 
it very clear. Dr. Hooker could testify to that if this bill 
was to pass.
    Dr. Franklin, would you then respond to a, if you will, 
suggestion that we have made it, there are individual success 
stories in the African-American population, there are 
individual success stories in the population that sits before 
us, the survivors; why then would there need to be a remedy?
    Mr. Franklin. Well, I think there needs to be a remedy 
because the individual success stories do not explain the 
plight of these victims, you see. When you look at the victims, 
you have to think about the least that can be done to 
facilitate their progress or their survival.
    And I think one of the things we often do or too often do 
in this country is to--it is to point to Booker Washington or 
whatever and say that why can't you do what Booker Washington 
did or why can't you do what someone else did that has risen. 
But you can't do that. That is not what the opportunities 
provide.
    The least among us is the one that ought to be watched and 
cared for and looked after, not the successful ones, sometimes 
lucky, successful ones, but the least.
    Mr. Nadler. The gentlelady's time is expired.
    Ms. Jackson Lee. Thank you.
    Mr. Nadler. The time of the gentlelady is expired.
    I now yield 5 minutes to the gentlelady from California.
    Ms. Waters. Thank you very much, Mr. Chairman. I am very 
appreciative for this hearing that you are holding.
    And I would like to thank Chairman Conyers for authoring or 
sponsoring the legislation that would effectively waive the 
statute of limitations, I suppose, in this case. The 10th 
Circuit was just simply wrong.
    And I would like to thank particularly Professor Ogletree 
for his persistence. He has stuck with this, along with Dorothy 
Tillman over there from Chicago. It is the kind of persistence 
and strength we don't see a lot of these days. It is just 
remarkable.
    I would like to thank Dr. John Hope Franklin for his 
consistent, ever-present involvement in civil rights and 
justice.
    And for all of the survivors, I am just in awe. These 
survivors have been on this trail for a long time. I was 
recalling earlier about the Supreme Court in the dead of winter 
when these aged survivors did not complain. They were there 
bundled up. I have been to Tulsa with Professor Ogletree. They 
are always there. They sit for hours. It is absolutely amazing.
    And I thank all of you. And I am dedicated to the 
proposition that if you can do this, we can do this. And it 
makes a difference that now that we are in charge that we do 
everything that we possibly can to get some justice in this 
case.
    Let me just say that there is a gentleman in the back of 
the room. He is a cab driver. His name is Mack. He drove me, 
picked me up on the corner this morning as I was coming to 
work. He said when he heard my voice, he recognized the voice.
    He said, ``Are you that lady from California? Do you know 
anything about this hearing that is going to be held today?'' 
And I said, ``Yes, I do. And I am on my way there.'' And he 
said, ``Well, you know, I want to come, too.'' I said, ``Well, 
park this cab and get over there and come on over here with 
us.''
    And there he is in the back of the room. And that is Mack 
who has been driving a cab. Mack has been driving a cab for 40 
years. He is a third-generation Washingtonian.
    But it is the Macks of the world who depend on us to make 
things right. I mean, you have got a lot of people out there 
who care about what happens with all of this. And so, I am glad 
that he is here. And I am glad that we are here and we are able 
to exercise our power and our influence.
    Now, I was the chair of the Congressional Black Caucus when 
we negotiated with Janet Reno to waive the statute of 
limitations. I remember her coming to my office with Rahm 
Emanuel. I kicked Rahm Emanuel out of my office because he 
didn't think it could be done. And we convinced Bill Clinton 
and Janet Reno to move.
    And as I understand it, it was when they came to this 
Committee that you created and helped to fashion, along with 
Sensenbrenner, the statute that was needed. We did it then, and 
we can do it again. We can do it again because there is nothing 
that stops the Federal Government from deciding that it can do 
it.
    As I understand, everything taking a look at what has been 
put before us today, the 10th Circuit had the option. It did 
not exercise the option. And the reasons that they gave are not 
substantial, in my estimation, having reviewed this.
    So from here, we get this out of Committee. We work it past 
the floor. We get our Senate with us. And we will put it on the 
president's desk. And we will stand with it until justice is 
done.
    In closing, let me just say, again, Mr. Chairman, you have 
worked hard for so many years in doing the impossible. And, 
again, you have demonstrated your courage by taking up an issue 
that has been ignored for too long. And this will be part of 
your legacy and all of our legacy, I suppose. We know what the 
obstacles are that will be placed before us.
    But, Mr. Ogletree, let me just say to you, Professor, if 
you may, just answer one question in this time limit that I 
have. What is it that made you so determined, so sure that this 
was the right thing to do? Why have you stuck with this so long 
and so hard?
    Mr. Ogletree. Congressman Waters, thank you so much.
    It happened because--and Congressman Nadler, two of your 
constituents, Michele Roberts, one of the lawyers from New York 
is here. She worked with us. And Fay Anderson is also from New 
York. They are here for the hearing. I stuck with it because I 
walked into a room in 2003, saw these people. And no one had 
ever said, ``I am sorry, I understand, and I want to help.''
    What makes it amazing is that I talked to Wess Young about 
what they received, and I made a mistake. I said they got a 
gold medal from the State of Oklahoma. He said, ``No, first, it 
is not gold; it is brass. And it was given by the Black caucus 
from Oklahoma.'' That is all they have ever been given. And 
that, to me, is an American tragedy.
    And if I have--when I went to Johnny Cochran, he put money 
in. Everyone saw this as something that--this is what our life 
is about. If we are here with God's grace to do something, 
these are the cases that matter, not the ones that make money 
or give us fame, but the unknown, the faceless, the powerless. 
That is what we do.
    And I am so glad that 4 years ago when we filed this 
lawsuit--and we have lost, we have lost, we have lost, we have 
lost--to even be before Congress, to have you here present, to 
have a bill with their fingerprints on it, we have made it.
    And we will use every ounce of our breath and our 
commitment to make sure that they in their lifetime can tell 
their children and now grandchildren, now great-grandchildren 
and great-great-grandchildren somebody heard them in the 
wilderness and gave them comfort. That is why I am here.
    Mr. Watt. And finally, if I may, 30 seconds, Mr. Chairman?
    Mr. Nadler. Without objection.
    Mr. Watt. I don't know if the Committee had an opportunity 
to meet the survivors. Did they? And they know who is here with 
us today?
    Mr. Ogletree. Very briefly. But they are here.
    Just one last time, Otis Clark, 104-year-old, is the oldest 
survivor. If he will stand.
    Mr. Watt. One-hundred-and-four years old.
    Mr. Ogletree. Wess Young, 91-year-old survivor; Dr. Olivia 
Hooker, 91-year-old survivor; and John Hope Franklin, 92-year-
old son of Buck Colvert Franklin; and Edie Fay Gates, who has 
been the chronicler of their work; and former Representative 
Don Ross, who has written it; and their current representative 
who lives in their--they live in the district, Jamar Shomate.
    I think I have gotten everybody. Those are the folks. And 
the next generation, Demarial Solomon Simmons, the young man 
from Oklahoma who is going to help make this thing go forward.
    Mr. Watt. Demarial, yes. Yes. Thank you.
    Mr. Ogletree. Thank you.
    I would ask the Chairman, if we could--I have been showing 
the PowerPoint that describes much of the timeline. With your 
permission, I would like to have that in the record for this 
Committee to consider.
    Mr. Nadler. Without objection.
    [The information referred to is available in the Appendix.]
    Mr. Nadler. The Chair thanks the witnesses and all the 
survivors and the other people who came today.
    Without objection, all Members will have 5 legislative days 
to submit to the Chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as you can so that your answers may be part 
of the record.
    Without objection, all Members will have 5 legislative days 
to submit any additional materials for inclusion in the record.
    Again, I thank all participants.
    And with that, this hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                <F-dash>
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
